C'OCKLE
2311 Douglas Street CA

: E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B riefs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

DAKOTA, MINNESOTA &
EASTERN RAILROAD COMPANY,
Petitioner,

v.

INGRAM BARGE COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7197 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le Qudraw-
My Commission Expires Nov 24, 2020 A .

Notary Public Affiant 37950

 

 
